A
                                                                         EMPLOYMENT AND TRAINING

U.S. Department of Labor
R
I
E                                                                        ADMINISTRATION
D
I
S
C
U
S                          Office of Inspector General—Office of Audit
S
I
O
N

D
R
A
F
T




                                                                         CONTROLS OVER THE RELEASE OF THE UI
                                                                         WEEKLY CLAIMS REPORT NEED IMPROVEMENT




                                                                                            Date Issued:    January 2, 2014
                                                                                         Report Number:    17-14-001-03-315
U.S. Department of Labor                              January 2, 2014
Office of Inspector General
                                                      CONTROLS OVER THE RELEASE OF THE UI
Office of Audit
                                                      WEEKLY CLAIMS REPORT NEED
                                                      IMPROVEMENT
BRIEFLY…
Highlights of Report Number 17-14-001-03-315,         WHAT OIG FOUND
issued to the Assistant Secretary for Employment
and Training.                                         Although ETA corrected control deficiencies
                                                      identified after it released the Claims Report
WHY READ THE REPORT                                   prematurely, we found the policies and procedures
                                                      ETA followed to protect the Claims Report during
Within the U.S. Department of Labor (DOL), the        the embargo were either not documented in writing
Employment and Training Administration’s (ETA)        or, when written, were not designed to minimize
Office of Unemployment Insurance (OUI) is             the risk of unauthorized use or disclosure. ETA’s
responsible for producing the UI Weekly Claims        reliance on institutional knowledge of current
Report (Claims Report) from data collected and        control practices is not an adequate replacement
reported by the states. This data is used by the      for properly documented procedures, as this
government and the private sector as an economic      knowledge may be lost if experienced individuals
indicator to describe and predict the state of the    leave the agency or are otherwise unavailable.
nation’s economy. Although no federal legislation
or regulation requires ETA to embargo or release      In addition, our audit found that as ETA currently
the Claims Report, ETA has elected to publish the     operates an optional press lock-up to provide news
Claims Report, and because the information            organizations pre-release access to the
contained in the Claims Report has the potential to   embargoed Claims Report, it unintentionally
move financial markets, ETA instituted policies to    creates an unfair competitive advantage for certain
protect it via an embargo to ensure that no one       news organizations and their clients. This is
individual or company would be advantaged by          because even if news organizations adhere to the
having access to it before the general public. ETA    terms and conditions of the lock-up, their early
also allows pre-release access via a press lock-up    access to the data positions them to potentially
to improve the accuracy and public understanding      communicate this information to their clients,
of the data when it’s first released. However,        allowing them to trade on this data faster than the
specialized computer equipment and the advent of      Department can post the information to its website
algorithmic trading now allow market activity to be   and faster than the general public can access it
initiated from inside government lock-ups             once the embargo is lifted.
immediately upon the lifting of the embargo.
                                                      WHAT OIG RECOMMENDED
WHY OIG CONDUCTED THE AUDIT
                                                      We made six recommendations to the Acting
ETA officials reported to the Office of Inspector     Assistant Secretary for Employment and Training
General that ETA released the Claims Report one       to improve the controls over the release of the
day early on August 8, 2012. The audit objective      Claims Report that included eliminating the
was to answer the following question:                 competitive advantages provided to news
                                                      organizations inside the lock-up, or, absent a
Does ETA adequately protect the Weekly UI             viable solution, consider discontinuing the use of
Claims Report to ensure no one can gain an            the press lock-up. We made the same
advantage by having access to the report before       recommendation to the Commissioner of the
the general public?                                   Bureau of Labor Statistics since it also utilizes a
                                                      lock-up to disseminate embargoed data (see
READ THE FULL REPORT                                  Appendix D).

To view the report, including the scope,              Agency officials generally agreed with our
methodology, and full agency response, go to:         recommendations.
http://www.oig.dol.gov/public/reports/oa/2014/17-
14-001-03-315.pdf.
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 Controls Over Embargoed Data
                                  Report No. 17-14-001-03-315
                                                      U.S. Department of Labor – Office of Inspector General



Table of Contents


Inspector General’s Report .......................................................................................... 1


Objective - Does ETA adequately protect the Weekly UI Claims Report to ensure 

      no one can gain an advantage by having access to the report before the

      general public? ................................................................................................... 1


ETA corrected control deficiencies that led to a premature release of the Claims 

     Report. ................................................................................................................. 2


Policies and procedures for releasing the Claims Report were not adequately

       documented. ....................................................................................................... 3


Confidentiality policy was not designed to adequately protect the Claims Report

      against unauthorized use or disclosure........................................................... 4


Procedures for e-mailing the Claims Report were not designed to adequately

     protect against unauthorized use or disclosure.............................................. 5


Procedures for posting the Claims Report were not designed to adequately

     protect against unauthorized use or disclosure.............................................. 5


Allowing pre-release access to embargoed data provides a competitive advantage 

      to certain news organizations and their clients............................................... 6


Recommendations ...................................................................................................... 10


Appendices.................................................................................................................. 13

         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17

         Appendix C Acronyms and Abbreviations .......................................................... 19

         Appendix D Memorandum to BLS ...................................................................... 21

         Appendix E Agency Response to Draft Report................................................... 23

         Appendix F Acknowledgements ......................................................................... 27





                                                                                     Controls Over Embargoed Data
                                                                                      Report No. 17-14-001-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 Controls Over Embargoed Data
                                  Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




January 2, 2014

                              Inspector General’s Report

Eric Seleznow
Acting Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, D.C. 20210

Employment and Training Administration (ETA) officials filed an incident report with the
OIG that its Office of Unemployment Insurance (OUI) inadvertently violated an embargo
of its Unemployment Insurance (UI) Weekly Claims Report (Claims Report) by posting
the report to its website one day early. In response, we conducted an audit to answer
the following question:

      Objective - Does ETA adequately protect the Weekly UI Claims Report to
      ensure no one can gain an advantage by having access to the report
      before the general public?

OUI produces the UI Weekly Claims Report (Claims Report) from data collected and
reported by the states to measure emerging unemployment claims (initial claims) and
the number of persons claiming unemployment benefits (continued claims). This data is
used by the government and the private sector as an economic indicator to describe
and predict the state of the nation’s economy. Although no federal legislation or
regulation requires ETA to embargo or release the Claims Report, because the
information contained in the Claims Report has the potential to move financial markets,
ETA has elected to publish the Claims Report, and because the information contained
in the Claims Report has the potential to move financial markets, ETA instituted policies
to protect the Claims Report via an embargo to ensure that no one individual or
company would be advantaged by having access to it before the general public. The
embargo is typically lifted every Thursday at 8:30 AM (Eastern Time) when ETA
officially releases the report to the public.

On August 8, 2012, ETA inadvertently released the Claims Report on the agency’s
public website one day early. The Department of Labor’s (DOL) Office of Public Affairs
(OPA) learned of this incident when it received calls the next morning from press and
financial organizations that the report was available before the scheduled release time.
ETA investigated the claim and confirmed that the Claims Report was released
prematurely.




                                                             ETA Controls Over Embargoed Data
                                        1                         Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


Results

In summary, our audit confirmed that in response to the premature data release, ETA
took immediate action and developed new procedures for testing the file delivery
system used to post the Claims Report to ETA’s website, which was the cause of the
early release. These new procedures significantly reduce the risk of this type of
inadvertent disclosure by requiring the file delivery system to be tested at least two days
before the Claims Report release date. However, we found that the policies and
procedures ETA followed to protect the Claims Report during the embargo were either
not documented in writing or, when written, were not designed to minimize the risk of
unauthorized use or disclosure. This included: confidentiality agreements that did not
define unauthorized use, were not required to be signed, and provided no
consequences for non-compliance; e-mailing the embargoed Claims Report to OPA
without protecting it through the use of encryption; and unclear and incomplete
procedures for posting the Claims Report to the ETA website.

Finally, we found as ETA currently operates an optional press lock-up to provide
pre-release access to news organizations, it unintentionally creates an unfair
competitive advantage for certain news organizations and their clients.

A detailed discussion of our findings and recommendations follows:

ETA corrected control deficiencies that led to a premature release of the Claims
Report.

ETA‘s lack of written policies and procedures for testing its file delivery system
contributed to the premature release of embargoed data in August 2012 when the
agency inadvertently posted the Claims Report on its website one day early.
Specifically, ETA deviated from its normal practice and loaded the Claims Report into a
queue (to be posted to the ETA website) the day before its scheduled release. That
same evening, a programmer who was unaware the embargoed Claims Report was in
the queue, tested the delivery system with a test file and inadvertently posted the
embargoed report as well.

This deviation from ETA’s normal practice occurred because the ETA-OUI Reports
Team Lead was on vacation and ETA was holding its press lock-ups at the Department
of Commerce while the DOL News Room was being renovated. During this press
release, only one Reports Team member was available, and he had to attend the
Thursday morning press lock-up at the Department of Commerce. Since he would not
be able to follow the normal practice of loading the Claims Report on Thursday morning,
he loaded it the night before so it would be automatically posted to the web while he
was returning from the press lock-up.

In response to this incident, ETA took immediate action and developed written testing
procedures to address the causes of the early release. These new procedures require
testing of the file delivery system to be done at least two days prior to the Claims Report


                                                        ETA Controls Over Embargoed Data
                                         2                   Report No. 17-14-001-03-315
                                     U.S. Department of Labor – Office of Inspector General


release date. The Reports Team member conducting the test must ensure the test
process does not conflict with Reports Team activities or weekly postings. Additionally,
any deviation from the testing and posting procedures requires the Reports Team Lead
to notify the ETA-OUI Administrator and Deputy Administrator. These new procedures
significantly reduce the risk of this type of inadvertent disclosure occurring again.

Policies and procedures for releasing the Claims Report were not adequately
documented.

To protect the Claims Report from unauthorized use or disclosure during the embargo,
ETA implemented policies and procedures around the release of the report. However, a
number of the policies and procedures ETA followed during the Claims Report release
process were not documented in writing. ETA officials stated that written policies and
procedures were not necessary because everyone involved had been trained,
performed these tasks every week, and knew what they were doing.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that internal controls need to be clearly documented, and control
activities should be effective and efficient in accomplishing the agency's control
objectives.

The release process for the Claims Report begins every Thursday afternoon when the
Reports Team creates the template for the following week’s press release.
Unemployment data is collected electronically from the states and maintained in a
database. On the following Tuesday, the Reports Team tabulates the state UI data and
applies seasonal adjustments. ETA-OUI management reviews the Claims Report and
ETA usually finalizes it by close-of-business on that Tuesday.

On Wednesday, the Reports Team briefs the OUI Administrator using hard copy
materials. In addition, the Reports Team provides the embargoed Claims Report via
encrypted e-mail to the Council of Economic Advisors, Federal Reserve Bank, the
Office of the Chief Economist, and the Assistant Secretary for Employment and
Training. Prior to close-of-business Wednesday, the Reports Team prepares hard copy
documents and compact discs for the press lock-up in a physically secured room.

On Thursday morning, a member of the Reports Team (usually the Lead) collects the
hard copies and discs and attends the press lock-up conducted by OPA. Another
Reports Team member remains in ETA’s office to load files for posting the press
release to the ETA website and then e-mails the press release to OPA at 8:15 AM for
loading onto the main DOL website.

During this entire weekly process, ETA followed a number of practices to protect the
Claims Report, such as limiting pre-release access, working on the Claims Report in a
physically secure office, and isolating the data from the ETA network. However, ETA’s
written documentation of this process and its data security practices only addressed
securely e-mailing the embargoed Claims Report to pre-release recipients and posting


                                                       ETA Controls Over Embargoed Data
                                        3                   Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


the press release to ETA’s website. ETA had no written policies or procedures for data
collection, data handling, or report compilation and review. In addition, ETA officials
stated that in the event of a security breach, they would immediately release the
embargoed data to the public, but this policy was not documented in writing.

This lack of documented controls regarding the weekly release process increased
ETA’s risk of unauthorized use or disclosure of the Claims Report, such as the
premature release that occurred in August 2012. Also, institutional knowledge of current
control practices will be lost if experienced individuals leave the agency or are otherwise
unavailable and ETA’s policies and procedures are not adequately documented.

Confidentiality policy was not designed to adequately protect the Claims Report
against unauthorized use or disclosure.

ETA had a written confidentiality policy to protect the embargoed Claims Report from
unauthorized use and disclosure. It stated that all authorized personnel with access to
the Claims Report should sign a non-disclosure affidavit and keep the embargoed report
confidential and secure until its public release.

We identified several weaknesses in this policy that increased the risk of unauthorized
use or disclosure to the Claims Report:

   •	 The policy stated – but did not actually require – that authorized personnel with
      pre-release access should sign a non-disclosure affidavit and agree to keep the
      Claims Report confidential and secure until its public release. The policy should
      require that the non-disclosure affidavit be signed. As presently written, it only
      suggests that it should be signed.

   •	 Although the policy purports to prevent unauthorized use and disclosure, it did
      not specially define unauthorized use. The non-disclosure affidavit stated that the
      Claims Report could be used to profit in financial markets, but did not actually
      contain language to prevent individuals from using the report for that purpose.
      Instead, the affidavit focused entirely on preventing “unauthorized disclosure.”
      Thus, the affidavit would not preclude an individual from using the Claims Report
      to profit without actually disclosing it.

   •	 The non-disclosure affidavit allowed for disclosure “by direction or with consent of
      the proper authority,” but the policy did not define who a “proper authority” was.

   •	 The policy did not identify any consequences of non-compliance.

   •	 The policy did not require annual recertification or refresher training that would
      serve as a reminder to authorized personnel of their responsibilities to protect the
      Claims Report.




                                                        ETA Controls Over Embargoed Data
                                         4                   Report No. 17-14-001-03-315
                                     U.S. Department of Labor – Office of Inspector General


Additionally, ETA was unable to provide signed affidavits for 4 of 50 individuals who had
potential access to the embargoed Claims Report. ETA officials stated that the
4 missing affidavits were signed by the individuals at one point but may have been lost
in an office move. Furthermore, ETA did not periodically review affidavits on file to
ensure its records were accurate and current.

Procedures for e-mailing the Claims Report were not designed to adequately
protect against unauthorized use or disclosure.

ETA drafted procedures for e-mailing the embargoed Claims Report to the Federal
Reserve Bank, Council of Economic Advisors, and other pre-release recipients in an
encrypted file; however, ETA could not finalize these procedures because the
Department’s firewall blocked e-mail attachments encrypted with the Department’s
encryption software. ETA was using a less robust method of encryption as a
workaround because the firewall allowed those files to pass through. ETA officials said
that they were working with Departmental information technology officials to resolve the
issue.

We identified additional weaknesses in these procedures that increased the risk of
unauthorized use or disclosure to the Claims Report:

   •	 In order to e-mail the embargoed Claims Report to authorized personnel, the
      report was moved to a networked computer via a thumb drive, encrypted, and
      then e-mailed. However, because the data on the thumb drive was not
      encrypted, there was a risk of unauthorized disclosure if the thumb drive was lost
      or misplaced during this process. No technical constraints prevented ETA from
      encrypting the Claims Report prior to moving it to the networked computer.

   •	 The policy did not require that all e-mails containing embargoed data be sent in
      encrypted form. On Thursday mornings, ETA e-mailed a copy of the embargoed
      Claims Report to OPA for posting on the main DOL website, but this activity was
      not covered in ETA’s procedures. ETA’s practice was to send the embargoed
      Claims Report in an unencrypted e-mail even though the embargo had not yet
      been lifted.

Procedures for posting the Claims Report were not designed to adequately
protect against unauthorized use or disclosure.

ETA had written procedures in place for testing and posting the Claims Report to ETA’s
web site, including contingency procedures for manually posting the report should the
automated process not function properly. However, we identified several weaknesses in
these procedures that increased the risk of unauthorized use or disclosure of the Claims
Report:

   •	 The requirement to ensure that testing of the Claims Report web posting process
      did not conflict with the actual weekly posting of the Claims Report was not listed

                                                       ETA Controls Over Embargoed Data
                                        5                   Report No. 17-14-001-03-315
                                       U.S. Department of Labor – Office of Inspector General


      as a procedural step, increasing the risk that someone unfamiliar with the
      process would skip this critical step.

   •	 The “Comments” sections of the testing and posting procedures both stated that
      “it is critical to clear directories as required” to prevent files from being posted to
      the public website unintentionally. However, the procedures did not describe
      which directories would need to be cleared or when this action would be
      required.

   •	 The posting procedures differed from actual practice. Specifically, if the Claims
      Report had not been posted by the automated process, there was a second
      method of posting which involved hitting a “deploy” button. If that failed as well,
      there were procedures to post the file manually. However, the procedures as
      written did not cover the “deploy” button method of posting.

   •	 The Troubleshooting section stated that if the file was not displayed on the ETA
      web site, one should contact OUI Operations for support. This contradicted the
      actual procedure steps, which stated that if the file had not posted correctly, one
      should use the manual posting procedures.

The weaknesses in ETA’s written policies and procedures occurred because ETA did
not design them in a clear and comprehensive manner to ensure there would be no
unauthorized use or disclosure of the Claims Report. In addition, ETA did not
periodically review its affidavits, and therefore, was unaware that some were missing.
Until ETA documents and strengthens its policies and procedures for its embargoed
data reporting process and periodically reviewing its affidavits, ETA runs an increased
risk of future incidents of unauthorized use or disclosure.

Allowing pre-release access to embargoed data provides a competitive advantage
to certain news organizations and their clients.

As part of ETA’s reporting process for the Claims Report, ETA allows pre-release
access to approved news organizations via a press lock-up. This pre-release access as
ETA has currently implemented — which is not required — unintentionally creates an
unfair competitive advantage for certain news organizations and their clients.
Although no federal legislation or regulation required ETA to embargo or release the
Claims Report, ETA has elected to publish the Claims Report, and because the data
contained in the report was a “leading economic indicator” with the potential to move
financial and monetary markets, ETA instituted policies to protect the Claims Report via
an embargo to ensure that no one individual or company would be advantaged by
having access to it before the general public. According to ETA, the data in the Claims
Report is “a valuable commodity” which is “used by the Government and the private
sector to describe and predict the state of the economy.” As part of its release process,
ETA allowed pre-release access to approved news organizations thirty minutes prior to
the official release time via a press lock-up run by OPA. Pre-release access is only
granted for the purpose of fostering improved public understanding of the data when

                                                          ETA Controls Over Embargoed Data
                                          6                    Report No. 17-14-001-03-315
                                                 U.S. Department of Labor – Office of Inspector General


they are first released and the accuracy of any initial news reports or commentary about
the information.

The Claims Report is not the only report that is released via a press lock-up. Press
lock-ups are also used by other federal agencies to release principal federal economic
indicators such as the Bureau of Labor Statistics (BLS) Employment Situation Report
and Consumer Price Index.
DOL conducted its first press lock-ups in the mid-1980s when news organizations used
landline telephones to call in their news stories regarding economic data released by
the Department. Since then, the Department has struggled to ensure an equitable and
timely release of its economic data to the public due to significant changes in
technology and markets. Specifically, specialized computer equipment and the advent
of algorithmic trading now allow market activity to be initiated from inside government
lock-ups immediately upon the lifting of the embargo.

According to OPA’s Senior Advisor of Communications and Public Affairs in
Congressional testimony, 1 “The rapid speed at which markets can integrate information
has strengthened the financial incentive to violate the terms of pre-release access for
the purpose of providing non-public data to paid subscribers … Algorithmic trading
introduces new security variables into a lock-up system not originally designed to guard
against market-moving distributions that could be caused by the release of government
data to certain traders just seconds before the rest of the general public. A few years
ago, a few seconds here or there would not have had much of an impact. Today,
fractions of a second can equate to millions or even billions of dollars in market
movements.”

Responding to concerns in 2011 that embargoed DOL-generated economic data may
have been transmitted by news organizations prior to the lifting of the embargo, DOL
entered into an agreement with Sandia National Laboratories to conduct a security
assessment of DOL’s press lock-up facility. To address the deficiencies identified during
that assessment, DOL implemented a new credentialing policy and began requiring
news organizations to utilize DOL equipment or purchase equipment via a secure
supply chain. DOL also began using its own telecommunication staff to oversee work
performed by non-DOL personnel in communications closets, and began requiring
reporters to surrender personal items prior to entering the lock-up facility. In November
2012, Sandia concluded that the new security controls were sufficient defense against
early release of the data during the embargo. However, the review by Sandia and the
subsequent actions taken by the Department did not address an inherent vulnerability in
conducting the press lock-ups. Specifically, even if news organizations adhere to the
terms and conditions of the lock-up, their early access to the data positions them to
potentially communicate this information to their clients allowing them to trade on this
data faster than the Department can post the information to its website and the general
public can access it once the embargo is lifted.

1
 Congressional testimony was provided before the House Committee on Oversight and Government Reform on
June 6, 2012, regarding the integrity of DOL’s release of important national economic data to the American people.



                                                                        ETA Controls Over Embargoed Data
                                                     7                       Report No. 17-14-001-03-315
                                                  U.S. Department of Labor – Office of Inspector General



News organizations that wanted to attend the press lock-up were required to sign an
agreement and had to be approved by OPA before being allowed to participate. Due to
the limited amount of space for journalists in the press lock-up and the Department’s
goal in advancing the purpose of pre-release access, OPA will only approve news
organizations that are primarily journalistic enterprises who prepare – and publish,
broadcast, and/or post on the internet – time-sensitive summaries and analysis of DOL
data, which are likely to contribute significantly to public understanding through the
dissemination of original news, analysis, and/or opinion. OPA has denied organizations
access to the lock-up when OPA determined the organizations were not primarily
journalistic.

Some approved news organizations provide news, analysis, and raw data feeds to paid
subscribers. One of the news organizations that participates in the DOL press lock-up
advertised that it could provide ultra-low latency 2 feeds of machine readable news and
economic data designed for algorithmic trading applications and identified DOL and
other federal agencies in its advertised list of data sources. Another news organization
that participates in the DOL press lock-up advertised that it could send data directly
from government lock-ups so that privileged embargoed releases would be available
immediately at release time. This same advertisement stated that ultra-fast data delivery
is ensured by low latency technology infrastructure and direct access to government
lock-ups. Because these news organizations have pre-release access, they are able to
pre-load the data from the Claims Report for their data feeds/applications, allowing their
clients to get this information faster than the general public, which has to wait to
download the data after it gets posted to the DOL or ETA websites. As such, several
news organizations that participate in the DOL press lock-up are able to profit from their
presence in the lock-up by selling, to traders, high speed data feeds of economic data
formatted for computerized algorithmic trading.

OPA officials stated that news organizations in the press lock-up may have a
competitive advantage because they have the ability to get their information out to their
clients as soon as the embargo is lifted at 8:30 AM. In contrast, individuals and
companies without pre-release access have to wait for the information to be posted to
the ETA or DOL websites. Although both ETA and OPA begin to upload information to
the public websites at 8:30 AM, the process can sometimes take up to five minutes to
complete. Thus, those news organizations with pre-release access can get the data to
their clients faster, enabling them to make market trading decisions sooner. Since mere
fractions of a second can create significant competitive advantages, an inequity results
by allowing pre-release access to select news organizations, and, derivatively, to their
clients. The Wall Street Journal recently reported some clients of these news
organizations have paid $375,000 a year to subscribe to their data feeds. 3
2
  Latency refers to the time delay between the transmission of data and its subsequent receipt. The lower the latency,

the faster the data is transmitted.

3
  The Wall Street Journal, Monday, August 12, 2013, “Deutsche Borse’s News Service for Traders Draws Scrutiny of

Investigators” These data feeds include economic data released by DOL and other federal agencies as well as other

sources.




                                                                         ETA Controls Over Embargoed Data
                                                      8                       Report No. 17-14-001-03-315
                                                 U.S. Department of Labor – Office of Inspector General



While ETA is not a statistical agency and there is no federal legislation or regulation that
specifically applies to the release of the Claims Report, OMB has issued guidance
related to dissemination of statistical products released by federal statistical agencies.
OMB Statistical Policy Directive (SPD) No. 4, states that statistical agencies must
ensure that all users have equitable and timely access to data that are disseminated to
the general public. Furthermore, there is no requirement in OMB statistical directives
that agencies provide pre-release access to news organizations.

Moreover, even if ETA and OPA were able to post the data on their websites precisely
at 8:30 AM, the approved news organizations that are in the press lock-up, and their
clients, would still have a competitive trading advantage because the news
organizations in the lock-up are able to pre-load the data so it is ready to be transmitted
to their clients precisely at 8:30 AM. In contrast, those outside the lock-up would first
have to download the data at 8:30 AM before they could use it. Even if this “latency
period” only took fractions of seconds, the trading advantage could be quite significant,
as noted above. 4 In addition to the trading advantage, approved news organizations that
are in the press lock-up have a competitive advantage over individuals and other
organizations not permitted in the lock-up because they are in position to market their
data services for profit.

With recent technological advances, government lock-ups have evolved to become as
much about the speed at which valuable economic data can be distributed to investors
after the embargo is lifted as it is about the accuracy of the initial reporting and
commentary about the data. With respect to DOL’s lock-up, the intended purpose
remains ensuring the accuracy of the initial commentary about DOL-generated
economic data and that is the only reason pre-release access is provided to news
organizations. However, serving that purpose must be weighed against the inequitable
trading advantage that a lock-up potentially creates.

The Department’s Senior Advisor of Communications and Public Affairs stated OPA’s
mission is to protect the information until the embargo is lifted — what happens after
that is not a concern of the Department and would be more properly addressed by the
Securities and Exchange Commission or other market regulators. However, we do not
believe it is acceptable for DOL to continue a process that facilitates inequities in the
U.S. securities markets by giving a competitive advantage to news organizations
present in the press lock-up and their clients. As the lock-up and lifting of the embargo
presently work, this competitive advantage can be gained without violating the rules of
the lock-up.

Continuing the press lock-up also adds the risk that a news organization with pre­
release access could break the embargo and use or disseminate the information prior to

4
   We have communicated with BLS, which uses similar lock-up procedures, and officials confirmed that this inherent
advantage for those in the lock-up would exist even if data were posted on DOL’s websites simultaneously with the
lifting of the embargo in the lock-up.



                                                                        ETA Controls Over Embargoed Data
                                                     9                       Report No. 17-14-001-03-315
                                                  U.S. Department of Labor – Office of Inspector General


the official release time. According to an article in the Wall Street Journal, 5 federal law
enforcement authorities are conducting a probe into how media companies transmit
government data to investors, focusing on the Commerce, Labor, and Treasury
Departments. For years the Federal Bureau of Investigation has observed suspicious
trading activity in the fractions of seconds before the government releases economic
data, such as employment numbers. The Wall Street Journal article went on to state: “In
recent years, sophisticated investors have created software programs that automatically
execute trades once fed market-moving data. Media firms, meantime, have earned new
revenue by zapping the data from the government directly to clients.”

While allowing pre-release access to the Claims Report might foster improved public
understanding of the data, it can also enable news organizations and their clients to
financially benefit from that early access and increase the risk that companies will break
the embargo and use or release data early for profit.

In order for ETA to ensure an equitable release of the Claims Report, it must eliminate
any competitive advantages provided to news organizations in the lock-up and/or their
clients. One potential solution could still allow ETA to utilize the press lock-up to provide
pre-release access to news organization to write their news stories, and ask questions
related to data; however, news organizations would not be able to release their stories
or data until a sufficient amount of time after the Department has posted the data to its
website. This would prevent news organizations and their clients from benefitting
financially from pre-release access to DOL economic data. Or, since there is no federal
legislation or regulation requiring ETA to embargo or release the Claims Report, ETA
could discontinue its use of the press lock-ups for issuing the Claims Report and simply
release it to the Department’s website. ETA could provide time for news organizations
to ask questions related to the data after it is posted. This would have the added benefit
of eliminating the risk that news organizations in the lock-up could break the embargo.
There is precedent for this as the Conference Board, a research group that publishes
market-moving economic data, announced it was ending its practice of providing the
news media early access to its information because of concerns that doing so was
creating an unlevel playing field in financial markets.

Recommendations

We recommend that the Acting Assistant Secretary for Employment and Training:

      1. In consultation with OMB and other federal agencies who provide pre-release
         access via press lock-ups, develop and implement a strategy to achieve an
         equitable release of the Claims Report and eliminate any competitive advantage
         that news organizations inside the lock-up and their clients may have; or, absent




5
    The Wall Street Journal, Wednesday, April 10, 2013, “A Probe on Data Releases Is Revived”



                                                                        ETA Controls Over Embargoed Data
                                                     10                      Report No. 17-14-001-03-315
                                                 U.S. Department of Labor – Office of Inspector General


        a viable solution, consider discontinuing the use of the press lock-up to provide
        news organizations pre-release access to the Claims Report. 6

    2. Develop written policies and procedures for its Claims Report release process,
       including practices for data collection, report compilation and review, data
       security/handling, and breach handling.

    3. Ensure policies and procedures require embargoed data be encrypted prior to
       being removed from the physically secure office or e-mailed in electronic format.

    4. Strengthen ETA’s confidentiality policy to cover unauthorized use, require
       affidavits be signed by all personnel with pre-release access, define “proper
       authority,” identify consequences of non-compliance, and require annual
       recertification or refresher training.

    5. Develop policies and procedures to periodically review affidavits on file to ensure
       all individuals with potential access to embargoed data have signed an affidavit
       and ETA’s records are accurate and current.

    6. Strengthen procedures for testing and posting the Claims Report to address
       issues with the current procedures identified in this report.

Management’s Response

The Acting Assistant Secretary of ETA agreed with the all of the recommendations to
improve the operating procedures associated with the release of the Claims Report.
Furthermore, both the Acting Assistant Secretary of ETA and the Commissioner of the
Bureau of Labor Statistics agreed that it is appropriate to consider ending the press
lock-up for the Claims Report. The response noted that the Department had begun
exploring the value of the press lock-up for the Claims Report prior to the release of this
report and intends to continue its consideration of how best to disseminate the Claims
Report to the public and to news organizations.

The Acting Assistant Secretary of ETA and the Commissioner of the Bureau of Labor
Statistics also said that the report includes findings and recommendations that go
beyond the audit of the original incident. Furthermore, they indicated they regretted that
the report addressed the lock-up without attempting what they described as a “careful
analysis” of the lock-up issue. Finally, the response noted at length the steps the
Department has taken to strengthen security over the press lock-up.




6
 While the scope of this report was ETA, BLS uses similar lock-up procedures. The OIG issued a memorandum to
BLS recommending it also address this issue as it relates to lock-ups conducted for pre-release access to BLS data.
See Appendix D.



                                                                        ETA Controls Over Embargoed Data
                                                    11                       Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


OIG’s Response

We performed our audit work in accordance with Government Auditing Standards,
which included analyzing all of the issues necessary to address our audit objective.
Specifically, we identified the press lock-up issue as a potential risk to the Department
in that the press lock-up, as currently operated, is potentially defeating the purpose of
ETA’s embargo. We would be remiss to not bring this matter to management’s
attention. It is now the responsibility of Departmental management to conduct a careful
analysis to evaluate this risk and determine what actions it needs to take to address our
recommendations. We also reviewed actions taken by the Department to strengthen
security over the press lock-up, and did not take issue with these improvements to the
security of the lock-up. However, none of the actions addressed the significant issue we
identified that the press lock-up facilitates high-speed computerized trading in a manner
that provides a competitive advantage to news organizations and their clients.

Management’s response is located in Appendix E.

We appreciate the cooperation and courtesies that ETA and OPA personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                        ETA Controls Over Embargoed Data
                                        12                   Report No. 17-14-001-03-315
              U.S. Department of Labor – Office of Inspector General




Appendices





                                ETA Controls Over Embargoed Data
                13                   Report No. 17-14-001-03-315
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           ETA Controls Over Embargoed Data
           14                   Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

The federal-state UI Program provides unemployment benefits to eligible workers who
are unemployed through no fault of their own. Within DOL, ETA’s OUI is responsible for
providing oversight and guidance for the UI Program, and each state/jurisdiction
administers a separate UI program within guidelines established by federal law.

OUI produces the Claims Report from data collected and reported by the states to
measure emerging unemployment (initial claims) and the number of persons claiming
unemployment benefits (continued claims). These data are used by government and the
private sector as economic indicators to describe and predict the state of the nation’s
economy. Because the Claims Report has the potential to move financial markets, ETA
protects the Claims Report through an embargo to ensure that no one individual or
company would be advantaged by having access to it before the general public. The
embargo is typically lifted every Thursday at 8:30 AM (Eastern Time) when ETA
officially releases the report to the public.

Several authorized personnel from DOL, the Council of Economic Advisors and the
Federal Reserve Bank receive the embargoed Claims Report one day prior to its official
release. In addition, news organizations approved by OPA are provided early access to
the Claims Report via a “press lock-up” thirty minutes before its release. This early
access is intended to serve the general public by facilitating the news media’s ability to
analyze and ask questions about the data as they prepare their news stories. Press
lock-ups are also used by other federal agencies to release principal federal economic
indicators such as the BLS Employment Situation Report and Consumer Price Index.
OPA is responsible for coordinating and monitoring all DOL press lock-ups.

In running the press lock-up, the Department has adopted the requirements of OMB
SPD No. 4 which provides guidance on the purposes of pre-release data. SPD No. 4
states: “The purpose of pre-release access is to foster improved public understanding
of the data when they are first released and the accuracy of any initial commentary
about the information.” The Department embraces the goal of maximizing the public’s
access to informed discussions about the data when they are released by providing pre­
release access for the press to final statistical products.

On August 8, 2012, ETA violated its embargo of the Claims Report by inadvertently
releasing it on the agency’s public website one day early. OPA learned of this incident
when it received calls the next morning from press and financial organizations that the
report was available before the scheduled release time. ETA investigated the claim,
confirmed that the Claims Report was released prematurely, and filed an incident report
in accordance with DOL policy. The OIG initiated this audit based on the incident.




                                                        ETA Controls Over Embargoed Data
                                        15                   Report No. 17-14-001-03-315
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           ETA Controls Over Embargoed Data
           16                   Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Does ETA adequately protect the Weekly UI Claims Report to ensure no one can gain
an advantage by having access to the report before the general public?

Scope

The audit covered ETA’s controls over the embargoed Claims Report at ETA’s National
Office and DOL’s press lock-up room in Washington, D.C.

We conducted fieldwork at the ETA and OPA offices in Washington, D.C.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To achieve our objective, we reviewed applicable federal and ETA criteria that covered
the protection of the embargoed Claims Report; interviewed ETA and OPA officials to
obtain a general understanding of how the Claims Report was compiled and released
and how the embargoed report was protected; reviewed non-disclosure affidavits signed
by individuals with potential access to the Claims Report to ensure they were
appropriately authorized for that access; and interviewed an Office of Management and
Budget (OMB) official to understand how OMB’s statistical policy directives applied to
the Claims Report.

We examined ETA’s controls over the embargoed Claims Report by reviewing
applicable federal and ETA criteria that covered the protection of the embargoed Claims
Report; interviewing ETA and OPA officials to obtain a general understanding of how
the Claims Report was compiled and released, and how the embargoed report was
protected; reviewing non-disclosure affidavits signed by individuals with potential access
to the Claims Report to ensure they were appropriately authorized for that access; and
interviewing an OMB official to understand how OMB’s statistical policy directives
applied to the Claims Report.




                                                        ETA Controls Over Embargoed Data
                                        17                   Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


Criteria

No federal criteria govern the embargo of the Claims Report or require ETA to release
the report to the public. ETA viewed the Claims Report as an administrative by-product
of the UI system; however, because the data was a “leading economic indicator” that
had the potential to move financial and monetary markets, ETA embargoed the report
intending that no one individual or company would be advantaged by having access to
the data before any other.

OMB SPD No. 3, which provides guidance for the compilation, release, and evaluation
of principle federal economic indicators, does not apply because the Claims Report has
not been designated as a principal federal economic indicator by OMB.

OMB does not have a specific definition for principle federal economic indicator.
However, OMB SPD No. 3, states in part:

      Statistical series that are widely watched and heavily relied upon by
      government and the private sector as indicators of the current condition
      and direction of the economy must meet high standards of accuracy and
      reliability. Because such data series have significant commercial value,
      may affect the movement of commodity and financial markets, or may be
      taken as a measure of the impact of government policies, public release
      must be prompt and according to an established, publicly available
      schedule.

OMB SPD No. 4, which provides guidance on the release and dissemination of
statistical products by federal statistical agencies, does not apply because neither ETA
nor OUI meet the definition of a federal statistical agency or unit.

OMB SPD No. 4 defines a statistical agency as “…an organizational unit of the
executive branch whose activities are predominantly the collection, compilation,
processing, or analysis of information for statistical purposes. Statistical purpose means
the description, estimation, or analysis of the characteristics of groups, customarily
without identifying the persons, organizations, or individual data observations that
comprise such groups, as well as researching, developing, implementing, maintaining,
or evaluating methods, administrative or technical procedures, or information resources
that support such purposes.”




                                                        ETA Controls Over Embargoed Data
                                        18                   Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations



BLS        Bureau of Labor Statistics

DOL        Department of Labor

ETA        Employment and Training Administration

OIG        Office of Inspector General

OUI        Office of Unemployment Insurance

OPA        Office of Public Affairs

OMB        Office of Management and Budget

SPD        Statistical Policy Directive

UI         Unemployment Insurance




                                                        ETA Controls Over Embargoed Data
                                          19                 Report No. 17-14-001-03-315
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           ETA Controls Over Embargoed Data
           20                   Report No. 17-14-001-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                              Appendix D
Memorandum to BLS


        U.S. Department of Labor                Office of Inspector Gen eral
                                                Washington, DC. 20210




       January 2, 2014


       MEMORANDUM FOR:            ERICA L. GROSHEN
                                  Commissioner
                                  Bureau of Labor Statistics




       FROM:                      ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

       SUBJECT:                   Pre-Release Access to Bureau of Labor
                                  Statistics Economic Data

       We issued the attached audit report, "Controls Over the Release of the Ul Weekly
       Claims Report Need Improvement," Report No. 17-14-001-03-315, to the Employment
       and Training Administration (ETA) on January 2, 2014.

       Our audit found that the optional press lock-up operated by ETA to provide news
       organizations pre-release access to the embargoed Unemployment Insurance Weekly
       Claims Report unintentionally creates an unfair competitive advantage for certa in news
       organizations and their clients. Although news organizations adhere to the terms and
       conditions of the lock-up, their early access to the data positions them to potentia lly
       communicate this information to their clients who trade on this data faster than the
       Department can post the information to its website and the general public can access it
       once the embargo is lifted.

       Pre-release access of DOL-generated economic data is intended to serve the genera l
       public by ensuring that news reports about the data are accurate. To that end, the
       media are given access to the data in advance of the public release to facilitate their
       ability to ana lyze and ask questions about the data as they prepare their news stories.
       However, the intended purpose of ensuring accurate news reports must be weighed
       against the inequitable trading advantage that a lock-up can potentially create. Several
       news organizations that participate in the DOL press lock-up are able to profit from their
       presence in the lock-up by selling, to traders, high speed data feeds of economic data
       formatted for computerized algorithmic trading. Because these news organizations have
       pre-release access, they are able to pre-load the data from the Cla ims Report for their
       data feeds/app lications, allowing their clients to get this information faster than the
       general public, which has to wait to download the data after it gets posted to the
       Department of Labor websites.

                            Working for A merica's Workforce




                                                                          ETA Controls Over Embargoed Data
                                              21                               Report No. 17-14-001-03-315
                                    U.S. Department of Labor – Office of Inspector General




                                            -2-


In our report, we recommend that ETA, in consultation with OMB and other federal
agencies who provide pre-release access via press lock-ups, develop and implement a
strategy to achieve an equitable release of the Claims Report and eliminate any
competitive advantage that news organizations inside the lock-up and their clients may
have; or, absent a viable solution, consider discontinuing the use of the press lock-up to
provide news organizations pre-release access to the Claims Report. (Recommendation
#1)

The Bureau of Labor Statistics (BLS) also uses a press-lock up to provide pre-release
access to Principal Federal Economic Indicators it publishes, such as the Employment
Situation Report and the Consumer Price Index, as do other federal. Accordingly, we
recommend that BLS also work with OMB, which provides guidance on pre-release
access to final statistical products and other federal agencies who provide pre-release
access via press lock-ups, to implement a strategy designed to eliminate any
competitive advantage that news organizations present in the lock-up and/or their
clients may have; or, absent a viable solution, consider discontinuing the use of the
press lock-up that provides news organizations pre-release access.

If you or your staff has any questions, please call Tracy M. Katz, Audit Director, at
(202) 693-5161 .

Attachment

cc:    Edward C. Hugler
       Deputy Assistant Secretary for Operations
       Office of the Assistant Secretary for Administration and Management

       John Galvin
       Deputy Commissioner
       Bureau of Labor Statistics

       Daniel J. Lacey
       Associate Commissioner for Administration
       Bureau of Labor Statistics

       Patrick Seburn
       Division of Management Services
       Bureau of Labor Statistics




                                                            ETA Controls Over Embargoed Data
                                       22                        Report No. 17-14-001-03-315
                                                U.S. Department of Labor – Office of Inspector General


                                                                                                       Appendix E
Agency Response to Draft Report




     U.S. Department of Labor                   Assistant Secretary for
                                                Employment and Training
                                                Washington, D.C. 20210

              DEC 1 3 2UU


          MEMORANDUM FOR:               ELLIOT P. LEWIS
                                        Assistant Inspector General
                                        for Audit            ~-     ,
          FROM:                        ERIC M. SELEZNOW              . ., , / \ f f
                                       Acting Assistant Seer           ' '


                                        E~~::~:;~Y~7ti
                                         ommissioner
                                         ureau of Labor Statistics

          SUBJECT:                     Audit of Controls Over the Release of the UI Weekly Claims
                                       Need Improvement, Draft Audit Report No. 17-13-002-03-315


          Thank you for the opportunity to comment on your final draft report on controls associated
          with the release of the Unemployment Insurance (UI) weekly claims report. The Employment
          and Training Administration (ETA) appreciates the Office of Inspector General (OIG)
          conducting this audit at the request of former Assistant Secretary of Labor for ETA Jane Oates.
          Because the report includes findings and recommendations that go beyond an audit of the
          original incident, the Department's response is organized in two segments: a response to the
          primary findings and recommendations related to the release of the UI weekly claims report,
          and a response reflecting the shared position ofETA and the Bureau of Labor Statistics (BLS)
          to the findings and recommendations related to press lock-ups.

          Recommendations 2..(): Release of the Ul Weekly Claims Report

          ETA appreciates the OIG's review of the operating procedures associated with release of the UI
          weekly claims report and concurs with the findings and recommendations - specifically
          recommendations 2 - 6. Implementation of the recommendations will further strengthen the
          security ofthe embargoed data. ETA has already taken steps to fully address recommendations
          2, 3, 4, 5, and 6 and we will be happy to share the revised procedures and processes with the
          OIG.

          Recommendation 1: Press Lock-up Issues

          OIG's audit and recommendations depart from the objective of the original referral, which was
          initiated in response to the unintended public release on ETA's website of the Weekly UI
          Claims Report on August 8, 2012. Instead, the OIG defined the scope of the audit as the
          broader issue of whether ETA "adequately protect[s] the Weekly UI Claims Report to ensure
          no one can gain an advantage by having access to the report before the general public." The




                                                                           ETA Controls Over Embargoed Data
                                                   23                           Report No. 17-14-001-03-315
                                       U.S. Department of Labor – Office of Inspector General




audit report properly addressed the premature data release and the steps ETA took to reduce the
risk of a recurrence. However, it also focused on the complex policy question of whether
technological advances provide an unfair advantage to the news organizations (including their
subscribers) that participate in the Department's press lock-ups used by the Department and
other federal agencies for the release of statistical data. The first recommendation in the report
states that "[i]n consultation with the Office of Management and Budget (OMB), BLS and
other federal agencies who provide pre-release access via press lock-ups, develop and
implement a strategy to achieve an equitable release of the Claims Report and eliminate any
competitive advantage that news organizations inside the lock-up and their clients may have; or
discontinue the use of the press lock-up to provide news organizations pre-release access to the
Claims Report."

The Department agrees that issues surrounding the continued efficacy of the lock-up in light of
both its underlying purposes and technological changes should be addressed. However, only
through careful study of the actual practices within and outcomes of the Jock-up, including
current security measures, real or threatened data breaches, competitive advantages achieved by
those who participate in the lock-up, and the continuing journalistic values served by the lock­
up, will the Department and other federal agencies, including OMB, be able to make informed
decisions about this important issue. We regret that the OIG Report addressed the lock-up
without attempting such a careful analysis.

Historically, the use of press lock-ups has been to promote accurate reporting of economic data
and the role of the Department has been to ensure the data is secure until the embargo on the
data is lifted. As the report notes, the Department has taken significant steps to improve its
capacity to secure the data.

In April of20Jl, the Department engaged Sandia National Laboratories to identify potential
vulnerabilities in its print media lock-up facility, provide mitigation options for vulnerabilities
identified, and assist in mitigation verification regarding any changes the Department decided
to make to the lock-up. Sandia provided the Department a report and series of
recommendations in August of201l. Based on these recommendations, the Department made
a number of significant security enhancements to mitigate the premature release of embargoed
data.

Technology Change:'!

The Department's policy permits credentialed news organizations to use a Department-owned
system or provide their own computer equipment, though supply-chain safeguards prevent
news organization staff from physically handling the desktop computers they have purchased
for use in the lock-up facility. Production desktops are stored in locked boxes on-site; news
organization staff access is limited to the monitor, mouse, keyboard, and external DVD drive.
These combined measures enforce configuration management-a foundational element of
information assurance policy.

News organization communication lines now terminate in a telecommunications vault, and
news organization Wide Area Network (WAN) equipment has been moved to a secure location


                                                 2




                                                                 ETA Controls Over Embargoed Data
                                           24                         Report No. 17-14-001-03-315
                                        U.S. Department of Labor – Office of Inspector General




in the Department data center (where no physical access is granted to news organization staff or
contractors). All Local Area Network (LAN) equipment is now owned and controlled by the
Department and located in a secured closet in the media lock-up facility. News organizations
connect to their telecommunication lines through the Department's infrastructure.

The Department increased its control over access to the Internet during the embargo period by
installing physically and logically secured media converters located in a LAN closet, which is
unavailable to media organization staff and contractors. The "black-boxes" previously used to
perform this function now control telephones only.

Physical Changes

The print media lock-up facility was gutted and rebuilt with RF shielding in order to mitigate
the potential use of transmitting devices inside the lock-up. Locked boxes- accessible to
Department staff only - are installed at each news organization work station to secure news
organization equipment.

Department installed lockers and a metal detector in the hallway outside the media lock-up
facility and now require media organization employees to deposit their personal belongings in a
locker and submit to screening before entering the facility. The only items news organization
staff is permitted to bring in the room are notebooks.

According to Sandia' s final acceptance testing of the enhancements, the Department made
significant strides in improving the security posture of the media lock-up facility and
implemented risk mitigation controls judged to be sufficient defense against identified threats.

Policy Changes

The Department's Office ofPublic Affairs (OPA), which administers lock-ups, also re­
evaluated its criteria for granting press credentials to the lock-up facilities, consistent with one
of Sandia's recommendations. A committee of career employees reviewed credentials and
issued new press badges based on whether organizations are primarily journalistic enterprises
and publish time-sensitive reports that contribute significantly to the public understanding of
economic and employment data. The committee established procedures that require every
entrant into the lock-up facility to sign an embargo agreement, which includes provisions for
expulsion or temporary suspension of news organizations and their personnel if the career staff
believes a violation has taken place.

The Department's lock-up facility is a model for the government and the Department is
committed to continuous improvements that protect the integrity of federal data. Having said
that, OPA acknowledges that press lock-ups can never be totally secure and operate on the
honor system.

Recommendation 1 in the report suggests that ETA should consult with OMB and other federal
agencies that provide pre-release access to economic data via press lock-ups to develop and
implement a strategy to achieve an equitable release of the UI weekly claims report so as to
eliminate the potential for any competitive advantage by the news organizations participating in
                                                  3




                                                                  ETA Controls Over Embargoed Data
                                           25                          Report No. 17-14-001-03-315
                                      U.S. Department of Labor – Office of Inspector General




the lock-up. The footnote to this recommendation notes that the OIG has sent a memorandum
to BLS recommending similar actions with regard to their press lock-ups.

We agree with the OIG that it is appropriate to consider ending the Ul weekly claims press
lock-up. In fact, well before the release of the OIG's report, the Department began exploring
the value of the press lock-up for the UI weekly claims report and intends to continue its
consideration of how best to disseminate the report to the public and to news organizations.
The Department routinely explores opportunities to improve its data releases and ways to better
explain the data and make it more user-friendly. We will also continue seeking ways to
improve the presentation of the data.

In addition, the Department will circulate the OIG Report to OMB and other federal agencies
that provide pre-release access to Principal Federal Economic Indicators via press lock-ups as
soon as the OIG publishes the Report in order to consider the OIG's parallel recommendation
to BLS about continued use of the lock up. We will then consult with OMB and the statistical
agencies to discuss the serious issues raised in the OIG's recommendation and consider options
for moving forward.

Thank you for the opportunity to provide these comments.




                                               4




                                                              ETA Controls Over Embargoed Data
                                         26                        Report No. 17-14-001-03-315
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix F
Acknowledgements

Key contributors to this report were: Tracy Katz (Audit Director), Steve Sovich (Audit
Manager), Brian Devaney, Grover Fowler, Jr., Rodelito Homoroc, Christine Allen, and
David Hutner.




                                                       ETA Controls Over Embargoed Data
                                       27                   Report No. 17-14-001-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
